                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSP::<CTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

                                                                   i

      Case Number: I08060045                                                                  Page 1 of 1
                                                                   e

                                                                   b

            This investigation was opened pursuant to an allegation +at a college1had improperly charged
            time to one NSF award2 which should have been charged to another NSF a ~ a r d . ~ .

            We obtained records from .the College and then asked it to review certain salary charges. The
            College determined that some costs were indeed improperly charged to one NSF award and
            should have been charged to another NSF award, and the t~ansferredthe charges to the
            appropriate award.
                                                                   .   Y
            Accordingly, this matter is closed.




11'
                                                                       -
                                                                       .-
  NSF OIG Form 2 (1 1/02)
